    NATIONAL RAILROAD
    PASSENGER CORPORATION




                                                                                                 April 1, 2013

The Honorable Henry A. Waxman                         The Honorable Sheldon Whitehouse
Co-Chair                                              Co-Chair
Bicameral Task Force on Climate Change                Bicameral Task Force on Climate Change
Ranking Member                                        Chairman
Committee on Energy and Commerce                      Subcommittee on Oversight
                                                      Committee on Environment and Public Works

The Honorable Edward J. Markey                        The Honorable Benjamin L. Cardin
Co-Chair                                              Co-Chair
Bicameral Task Force on Climate Change                Bicameral Task Force on Climate Change
Ranking Member                                        Chairman
Committee on Natural Resources                        Subcommittee on Water and Wildlife
                                                      Committee on Environment and Public Works

Dear Co-Chairs Waxman, Whitehouse, Markey and Cardin:

Your February 25, 2013 letter asked a series of questions regarding what Amtrak is doing to
address climate change issues. The first part of your request focused on compliance with the
2007 Energy Independence and Security Act as well as Executive Order 13514. Because
Congress  has  mandated  that  Amtrak  “shall  be  operated  and  managed  as  a  for-profit
corporation and . . . is not a department, agency, or instrumentality of the United States
Government,  and  shall  not  be  subject  to  title  31,”1 neither of these requirements applies to
Amtrak directly. Likewise, the second part of your request is largely inapplicable to Amtrak
because, unlike a federal government agency such as the EPA, Amtrak has no authority to
require others either to reduce emissions or to become more resilient to the effects of climate
change.

Nevertheless, Amtrak shares your concern regarding climate change and related environmental
issues.    In  order  to  assess  Amtrak’s  efforts  in  this  area,  which  are  largely  voluntary  and  not  
mandated by any federal statute, regulation, or executive order, OIG obtained the following
information from various sources within Amtrak and subsequently requested that company
management confirm the reliability of this information.

Amtrak informed us that it has initiated efforts in each of the following areas: (1) reducing
energy use in Amtrak-owned and leased buildings, (2) reducing greenhouse gas emissions,


1   49 U.S.C. § 24301(a)(2) and (3).
                                                                                                                2


principally in connection with diesel locomotives, (3) reducing reliance on petroleum products,
and (4) increasing environmental sustainability and adaptation.

In 2003, Amtrak became a charter member of the Chicago Climate Exchange and committed to
reduce emissions from locomotive diesel fuel by 6 percent (6%) between 2003 and 2010.
According to Amtrak, it exceeded this goal through various initiatives including anti-idling
practices, installation of automatic start/stop devices on its locomotives, improvements in
rolling stock, locomotive upgrades, and improved training for locomotive engineers.

In 2009, Amtrak joined The Climate Registry (TCR) and committed to produce a comprehensive
Greenhouse Gas (GHG) Inventory for all operations. The first annual submission was for
calendar year 2010. Using data from the 2011 GHG Inventory, Amtrak has established an
annual reduction goal of 1% per year for the next five years for metric tons of GHG per seat
mile and metric tons of GHG per passenger mile. Amtrak recently made the decision to switch
to the Carbon Disclosure Project (CDP) for publicly reporting GHG Inventory as well as other
sustainability information. In addition, Amtrak receives periodic requests from state and local
agencies as well as regional planning commissions for emissions data, including fuel used and
GHG emissions, and it provides this information as requested.

Amtrak signed onto the American Public Transportation Association (APTA) Sustainability
Commitment in 2009 as one of the founding signatories. Like the original commitment to TCR,
the APTA Commitment requires establishing a baseline inventory of greenhouse gas emissions,
and it also requires a broader survey of other parameters such as water and energy usage,
waste and recycling, and air emissions of criteria pollutants. Amtrak recently applied for the
Bronze recognition level under this program by demonstrating achievement of the core
principles and action items, and by setting specific reduction goals for fuel and energy
consumption.

In 2011, Amtrak became a signatory to the Sustainability Declaration of the International Union
of Railways (UIC). In signing the Declaration, Amtrak and other UIC members expressed their
intent to continue to improve sustainability and to make a clear statement of this commitment
to stakeholders and the general public.

In  addition,  one  of  Amtrak’s  key  strategic  goals,  as  outlined  in  its  2011-2015 Strategic Plan, is
to “Contribute  to  the  nation’s  environmental  health  by  attracting automobile and air travelers
to  trains,  while  improving  Amtrak’s  efficiency  and  reducing  transportation-related carbon
emissions and fossil fuel consumption.”  

In order to achieve this goal, Amtrak is focusing on reducing consumption of electricity, natural
gas, and diesel fuel in order to increase environmental sustainability and adaptation. To date,
Amtrak reported that it has accomplished the following:

        Decreased electricity usage by 3.7% in Fiscal Year (FY) 2012 compared to baseline usage
        in FY 2011
                                                                                              3


Decreased natural gas usage by 42% in FY 2012 compared to baseline usage in FY 2010
Installed 7,000 Energy Efficient lighting fixtures in FY 2010 and FY 2011 with a projected
reduction of 11 million kilowatt hours (kWh) of electricity and savings of $1.1 million
annually.
Performed  15  Energy  Audits  at  Amtrak’s  largest  sites  in  FY  2012  and developed an
Energy Reduction Plan for each site.
De-commissioned the Chicago Yard Steam Plant in FY 2010 and installed point of use
heating and de-icing boilers, funded partially by the American Recovery and
Reinvestment Act of 2009 (ARRA). Reduced natural gas usage by 2 million Therms and
expense by $2 million annually. Received a $580,000 rebate from the State of Illinois for
natural gas reduction.
Performed 5 compressed air audits in FY 2012 and as a result identified and repaired
200 leaks and 1 million kWh of wasted energy due to improperly sized compressors and
dryers.
Developed and distributed utilities reduction guidelines to assist facility managers in
reducing energy.
Installed new ground power at St. Louis; working toward installation at Newport News
and Milwaukee.
Initiated Environmental sustainability audits.
Completed a successful field trial using a 20% renewable biodiesel fuel blend to power a
daily interstate passenger train on the daily Heartland Flyer between Oklahoma City,
Oklahoma and Fort Worth, Texas, funded by a grant from the Federal Railroad
Administration and in partnership with the Oklahoma Department of Transportation.
Procured two generator set (GENSET) locomotives in California, and two in Chicago,
both funded by state grants. This new type of locomotive reduces fuel consumption and
emissions when compared to a single engine switcher.
In addition to the new GENSETs in California and Chicago, Amtrak will replace existing
diesel engines in two switcher locomotives with GENSET engines for use at the
Washington DC (Ivy City) yard. Amtrak is working in partnership with the Metropolitan
Washington Council of Governments (MWCOG), who is the recipient of a Diesel
Emissions  Reduction  Act  (DERA)  grant  awarded  through  EPA’s  National Clean Diesel
Funding Assistance Program. Amtrak is providing approximately 25% matching funds.
Amtrak has installed automatic engine start/ stop systems on its diesel fleet to minimize
locomotive idling, which is necessary to keep locomotives from freezing.
The new ACS 64 electric locomotives to be used on the Northeast Corridor (NEC) are
designed to send a maximum of 5 megawatts (MW) of power to the catenary (as
compared to current regeneration of 3 MW maximum) during braking. 5 MW
regeneration eliminates the need for dynamic brake grids on the locomotive, which
                                                                                                  4


       produced heat, and sends 2 additional MW into the catenary for use by other
       locomotives operating on the NEC, thereby reducing demand for electricity.
For the current fiscal year, Amtrak plans to replace an additional 3,000 light fixtures, with a
projected reduction of 5 million kWh and savings of $500,000 annually, and will perform 3
additional compressed air audits. In addition, Amtrak recently drafted a Sustainability Policy
that outlines a corporate Sustainability Program to support various initiatives, including fuel and
energy conservation efforts. The draft Policy and Program currently are under review at the
executive level.

If you have any questions, please contact David Warren, Assistant Inspector General, Audits, at
(202) 906-4742 (David.Warren@amtrakoig.gov) or me at (202) 906-4499
(Ted.Alves@amtrakoig.gov).


Sincerely,




Ted Alves
Inspector General
